OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/PAKISTAN’S
PRE-SERVICE TEACHER
EDUCATION PROGRAM
AUDIT REPORT NO. G-391-12-004-P
MARCH 16, 2012




ISLAMABAD, PAKISTAN
Office of Inspector General


March 16, 2012

MEMORANDUM

TO:                  USAID/Pakistan Mission Director, Andrew B. Sisson

FROM:                Office of Inspector General/Pakistan Director, Joseph Farinella /s/

SUBJECT:             Audit of USAID/Pakistan’s Pre-Service Teacher Education Program
                     (Report No. G-391-12-004-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
carefully considered USAID/Pakistan’s comments on the draft report and have included those
comments in Appendix II.

The report contains two recommendations to help the mission improve various aspects of the
program. USAID/Pakistan officials agreed with the two recommendations. On the basis of the
information provided by the mission in response to the draft report, we determined that
management decisions have been reached on the recommendations. The Audit Performance
and Compliance Division will determine whether final action has been achieved once the
mission completes planned corrective actions on the recommendations.

Thank you for the cooperation and courtesy extended to the audit team during this audit.




U.S. Agency for International Development
American Embassy, Diplomatic Enclave
Ramna 5, Islamabad, Pakistan
www.usaid.gov/oig
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Findings ........................................................................................................................... 3

     Certain Targets Were Not Met ............................................................................................... 3

     Performance Management Plans Did Not Comply With Agency Requirements ..................... 4

Evaluation of Management Comments.................................................................................... 7

Appendix I—Scope and Methodology ..................................................................................... 8

Appendix II—Management Comments .................................................................................. 10

Appendix III— Academy for Educational Development Program Indicators,
Targets, and Results ............................................................................................................... 12

Appendix IV— Education Development Center Program Indicators,
Targets, and Results ............................................................................................................... 13




Abbreviations

The following abbreviations appear in this report:

ADE             associate degree in education
ADS             Automated Directives System
AED             Academy for Educational Development
AOR             agreement officer’s representative
B.Ed.           bachelor of education
EDC             Education Development Center Inc.
FY              fiscal year
PMP             performance management plan
Pre-STEP        Pre-Service Teacher Education Program
USG             U.S. Government
SUMMARY OF RESULTS
To improve teacher education in Pakistan, in September 2008 USAID/Pakistan awarded a
cooperative agreement to Academy for Educational Development (AED) to implement the Pre-
Service Teacher Education Program (Pre-STEP).             Pre-STEP is managed by the
USAID/Pakistan Office of Education.      In April 2011, USAID/Pakistan canceled AED’s
cooperative agreement based on the Government of Pakistan’s decision to terminate its
memorandum of understanding with AED. To continue implementing Pre-STEP, in April 2011,
USAID/Pakistan awarded a cooperative agreement to Education Development Center Inc.
(EDC). As of December 31, 2011, USAID/Pakistan had obligated $17 million and spent $4.3
million on this agreement. Total Pre-STEP obligations were $37 million, and expenditures were
$22 million through December 2011. Award details appear in Table 1.

                                Table 1. Audited Activities
                                                                              Expenditures
                                                                Award
                        Agreement                                                  as of
     Partner                               Award Type          Amount
                          Period                                            December 31, 2011
                                                              ($ million)
                                                                                ($ million)
                                           Cooperative
       AED          9/30/2008-4/4/2011                            75              17.7
                                           agreement
                                           Cooperative
       EDC          4/5/2011-10/4/2013                            40               4.3
                                           agreement


Pre-STEP focuses on developing standards for teacher education across all provinces and the
Federally Administered Tribal Areas of Pakistan in collaboration with the Higher Education
Commission and the Ministry of Education. The program’s overall goal is to improve the quality
of basic education through improved teacher education.

In collaboration with the Government of Pakistan, Pre-STEP plans to improve teacher education
in three priority areas:

1. Improve national human resource policies by incorporating recruitment, certification,
   licensing, promotion, and salary revisions.

2. Develop teacher standards and new programs that replace existing Primary Teacher
   Certificate requirements. Upgrade existing 1-year and 4-year basic education curricula,
   purchase training and reference materials for teaching institutions, provide international
   technical assistance, and offer academic scholarships and research grants.

3. Develop, implement, and upgrade curricula in higher education institutions for current and
   new teachers at the national level.

The objective of this audit was to determine whether Pre-STEP is achieving its main goal of
improving the quality of basic education through improved teacher education.

In its first 3 years, the program made progress toward achieving improved teacher education by
developing and helping the Pakistani Government implement education policy reforms. The
Higher Education Commission approved two new education degree programs based in part on



                                                                                            1
Pre-STEP recommendations. The new degree programs and curricula are for a 2-year
associate degree in education (ADE) and a 4-year bachelor of education degree (B.Ed.). These
programs, introduced with USAID’s support, should ultimately affect teacher training colleges
and universities throughout Pakistan and help improve the overall quality of education.

In part because of Pre-STEP’s efforts, 16 Pakistan teaching institutions have adopted the new
degree programs. Pre-STEP plans to increase the number of colleges and universities offering
the new degrees over the next 2 years by supporting their implementation at target colleges and
universities and expanding the number of students enrolled in the new degree programs.

Despite progress in developing and implementing policy reforms at the provincial and national
levels, the program did not meet targets for 12 of 19 indicators. Some targets could not be met
because the activities to be quantified (outputs), such as student scholarships and grants
awarded, were postponed. Other program outputs, such as renovations at college and
university facilities and the number of teachers enrolled in the new curricula, fell short of targets,
as detailed in Appendix III.

A major contributing factor to these shortfalls occurred in the third year of the program, when the
mission terminated its agreement with AED and awarded a new agreement to EDC. The new
implementing organization required time to expand operations in Pakistan. During fiscal year
(FY) 2011, EDC developed a new performance management plan (PMP) and listed targets for
four program indicators for the period April through September 2011 (shown in Appendix IV).

Although the program has made progress, the audit identified two areas for improvement:

   Certain targets were not met (page 3). The program did not meet targets for 12 of 19
   indicators. Although the current budget reflects a desire to achieve the unmet targets, the
   rate of spending during the first 3 years of implementation suggests that the budget and the
   goals may need adjustment.

   Performance management plans did not comply with Agency requirements (page 4). Plans
   submitted by both implementers were late and lacked several elements, and the mission
   had not given final approval to the EDC plan.

The report recommends that USAID/Pakistan:

1. Review program progress to date in line with expenditures and timelines to achieve the
   desired results for the remainder of the agreement, document the results of the review, and
   make adjustments to the program if necessary (page 4).

2. Update and finalize the program’s performance management plan to ensure it is complete
   and meets Agency requirements (page 6).

Detailed findings follow. Appendix I presents the audit scope and methodology, and
USAID/Pakistan’s comments appear in Appendix II. Our evaluation of management comments
is on page 7 of the report.




                                                                                                    2
AUDIT FINDINGS
Certain Targets Were Not Met
USAID uses performance indicators to compare actual results with expected results and
determine whether programs are progressing toward their objectives. Agency guidance,
including Automated Directives System (ADS) Section 203.3.4.5, requires setting performance
targets for each performance indicator that are ambitious but can be achieved. Performance
targets are specific planned levels of results to be achieved within an explicit time frame and
may be set for the end of the agreement period or for each year of the program.

Pre-STEP made progress toward some established targets during the first 3 years. According
to AED’s final report, the following are key achievements:

1. Submitted amended policies related to the new degree programs to six provincial and area
   governments.

2. Determined future human resource needs for the number of teachers required at education
   institutes in Khyber Pakhtunkhwa Province.

3. Launched the new degrees and curricula at 16 government-run higher education institutions.

4. Provided Ph.D. scholarships to eight faculty members.

5. Made reforms in the certification and promotion practices for elementary school teachers.

However, the audit found that the program did not meet targets for 12 of 19 indicators. For
example, USAID funded 410 of 2,297 planned scholarships to students enrolled in the new
teaching curriculum and distributed 10 of 36 planned research grants with an average value of
$9,000 to teaching institutions in FY 2011. Indicators, targets, and results are shown in
Appendix III.

Program shortfalls occurred for several reasons, some within the mission’s control and some
not:

   The mission’s technical office had many competing priorities and lacked time to provide
   adequate oversight. During the period under review, the mission assigned one agreement
   officer’s representative (AOR) to manage Pre-STEP’s $75 million cooperative agreement.
   This AOR was assigned to manage three other projects whose average budget was
   $9 million. This situation contributed to not achieving planned program targets.

   The program got off to a slow start in its first 2 years of implementation. According to
   mission officials, key personnel hired to manage the program did not have the necessary
   management skills. As a result, the mission requested that AED change the chief of party in
   2009. AED also had an unexpected change with a significant partner in the second year of
   the award, causing further delays.




                                                                                               3
   In March 2011, USAID/Pakistan canceled AED’s cooperative agreement based on the
   Government of Pakistan’s decision not to work with AED anymore. To continue
   implementing Pre-STEP, in April 2011, USAID/Pakistan awarded a new agreement to EDC.
   Even though the mission awarded the new Pre-STEP cooperative agreement the day after
   terminating the AED agreement, the new implementing partner, EDC, needed time to hire
   additional staff, find new office space, develop work plans, and establish internal controls.

One result of the transition from AED to EDC was the postponement of some aspects of the
program. Because the new implementing organization required time to expand its operations,
the mission worked with EDC to develop a new PMP with only 4 of 19 program indicators for the
period April through September 2011. EDC met the established targets for three indicators;
information was not available on the fourth (shown in Appendix IV).

The transition from AED to EDC gave the mission an opportunity to review spending up to that
point (shown in Table 2) and determine whether projected expenditures were in line with
timelines for achieving desired results in the time remaining.

                        Table 2. Spending Through December 2011
                                                                     Rounded Rate
                                Number of         Amount Spent
           Implementer                                               ($000,000 per
                                 Months            ($ million)
                                                                        Month)
                AED                  30                17.7             600,000
                EDC                   9                 4.3             500,000

As the table makes clear, the monthly rate of spending through December 2011 was far below
the approximately $2.6 million per month referenced in the budget that USAID/Pakistan
prepared.

Given this rate of expenditures, the current budget could surpass the implementing partner’s
ability to spend funds efficiently and effectively and provide adequate oversight. Therefore, we
make the following recommendation.

   Recommendation 1. We recommend that USAID/Pakistan review program progress to
   date in line with expenditures and timelines to achieve the desired results for the
   remainder of the agreement, document the results of the review, and make adjustments
   to the program if necessary.

Performance Management Plans Did
Not Comply With Agency Requirements

According to ADS 203.3, performance management is the systematic process of monitoring the
achievements of program operations; collecting and analyzing performance information to track
progress toward planned results; using performance information and evaluations to influence
decision making and resource allocation; and communicating results. The mission uses a PMP
to measure progress toward the results identified in the planning stage. ADS 203.3.3 also
states that once an award is executed, the project staff must complete a PMP, with relevant
indicators and baseline data, within the first few months and before major project
implementation actions get under way.



                                                                                              4
In addition, ADS 203.3.3.5 requires that a PMP include specific monitoring elements: (a) a
schedule for data collection and baseline values and targets for each indicator, (b) a description of
the source of the data and the method for data collection, (c) performance indicators
disaggregated by gender, (d) a description of known data limitations for each indicator, (e) a
description of data quality assessment procedures, (f) the estimated cost of collecting, analyzing,
and reporting performance data, (g) a calendar of performance management tasks, and (h)
identification of possible evaluation efforts. Furthermore, ADS 203.3.4.6 instructs missions to
update PMPs regularly with new performance information as projects develop and evolve.

Contrary to ADS guidance and agreement deliverables, AED did not develop and maintain a
PMP that complied with Agency requirements. For example, the PMP lacked the following
monitoring requirements:

   Performance results disaggregated by gender

   A description of known data limitations of each performance indicator

   A description of data quality assessment procedures

   The estimated cost of collecting, analyzing, and reporting performance data

   A calendar of performance management tasks that the mission will conduct over the life of
   the project

   The identification of possible evaluation efforts that complement performance monitoring
   efforts

In addition, AED did not submit a final PMP until 17 months after the agreement was signed.
According to the mission, the delay occurred in part because AED management had difficulty
interpreting and complying with Agency directives. Because of the stalled PMP process and
other matters—including troubles with reporting, coordination, and keeping activities on
schedule—AED’s chief of party was replaced. Soon after, the mission finalized and approved
the PMP even though it did not fully comply with ADS guidelines.

The follow-on implementer, EDC, submitted a PMP to USAID/Pakistan on November 22, 2011,
2.5 months after it was due. USAID/Pakistan gave interim approval of the PMP, subject to
mission modifications.

This interim PMP lacked several key elements, such as:

   Performance results disaggregated by gender
   The estimated cost of collecting, analyzing, and reporting performance data

The interim approved PMP was 2.5 months late because EDC was tasked with absorbing an
existing agreement in a short period of time. Hiring personnel and securing office space also
contributed to the delay in developing the PMP.




                                                                                                   5
Without a final PMP, the implementing partner may not have a clear understanding of data
collection procedures, program targets, and monitoring requirements. A final PMP including all
required elements is needed. Therefore, we make the following recommendation.

   Recommendation 2. We recommend that USAID/Pakistan update and finalize the
   program’s performance management plan to ensure it is complete and meets Agency
   requirements.




                                                                                            6
EVALUATION OF MANAGEMENT
COMMENTS
USAID/Pakistan agreed with the findings and two recommendations in the report. Concerning
the report’s finding that certain targets were not met, the mission stated that OIG may not have
fully accounted for USAID’s efforts to ensure that program activities continued without delay
after the transition from AED to EDC. OIG fully recognizes delays caused by the termination of
AED’s cooperative agreement on pages 2 and 4 of the report. The mission also noted that a
primary program objective is policy reform and that the target in this area was exceeded within
the first 3 years. Again, OIG recognizes that policy reform is a major aspect of the program on
pages 1 and 2 of the report, and the results achieved are shown in Appendix III—performance
indicators 1 and 2.

Based on our evaluation of USAID/Pakistan’s management comments, management decisions
have been reached on the recommendations.

Recommendation 1. We recommend that USAID/Pakistan review program progress to date in
line with expenditures and timelines to achieve the desired results for the remainder of the
agreement, document the results of the review, and make adjustments to the program if
necessary.

USAID/Pakistan agreed and reported that it is working with EDC to reprogram, within the
parameters of the scope of work, for a more effective and efficient use of funds. The mission
expected to complete the reprogramming exercise by April 30, 2012. Accordingly, a
management decision has been reached on this recommendation.

Recommendation 2. We recommend that USAID/Pakistan update and finalize the program’s
performance management plan to ensure it is complete and meets Agency requirements.

USAID/Pakistan agreed and indicated that it plans to work with EDC to finalize the performance
management plan by April 30, 2012. Accordingly, a management decision has been reached
on this recommendation.

The Audit Performance and Compliance Division will make a determination of final action on
completion of the planned corrective actions for the two recommendations. The mission’s
written comments on the draft report are included in their entirety as Appendix II.




                                                                                              7
                                                                                         Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
in accordance with our audit objective. We believe that the evidence obtained provides that
reasonable basis.

The purpose of this audit was to determine whether Pre-STEP is achieving its main goal of
improving the quality of basic education in Pakistan through improved teacher education. As of
December 31, 2011, cumulative obligations and expenditures under Pre-STEP totaled
approximately $37 million and $22 million, respectively. The audit team reviewed performance
information for October 2008 through December 2011 and evaluated the major activities
implemented under the program.

In planning and performing the audit, the audit team reviewed the control environment at the
mission. We examined the mission’s FY 2011 self-assessment of management controls, which
the mission is required to perform to comply with the Federal Managers’ Financial Integrity Act
of 1982, to check whether the assessment cited any relevant weaknesses. We also reviewed
applicable USAID policies and procedures pertaining to USAID/Pakistan’s program including
ADS Chapters 201, 203, and 216.

The audit team assessed relevant internal controls used by the mission to manage the program.
These controls included maintaining regular contact with the implementer, approving key
personnel decisions, performing site visits, assessing reported results, and reviewing project
files and program reports. The audit team also reviewed the control environment at the
implementing partner, including a review of the procurement, security, and accounting functions
and the reporting of programmatic results.

The audit team performed fieldwork at the USAID/Pakistan mission, EDC’s main program office
in Islamabad, the provincial office in Karachi, and select higher education institutions in Pakistan
from September 20, 2011, through January 25, 2012.

Methodology
To answer the audit objective, we reviewed mission documentation used to manage and
monitor the program: country operational plans, performance management plans, implementing
partner agreements, performance measures, actual performance results, financial reports, and
site visit reports. We also interviewed mission officials; staff at the current implementing partner;
and program recipients including students, scholarship recipients, professors, and university
administrators. We also compared plan targets with reported results.

The audit evaluated whether the indicators used by the program are sufficiently results-oriented
to permit their use in answering the audit objective. Through discussions with USAID/Pakistan
officials and implementing partners, the auditors gained an understanding of (1) how the




                                                                                                   8
                                                                                       Appendix I


indicators are defined and computed, (2) the data sources utilized, and (3) the flow of data from
the implementing partner’s performance reports to its inclusion in quarterly and annual reports.

In assessing the status of the activities carried out during the program’s first, second, and third
years of operation, the auditors relied primarily on the implementer’s quarterly progress reports
from September 2008 through September 2011, supplemented by interviews conducted with
USAID/Pakistan and implementing partner staff regarding implementation problems reflected in
these reports. The audit team also reviewed the following sources of evidence: internal control
documents, prior audits, and cooperative agreements.

To validate the results reported under the program, the auditors checked key reported results
against supporting data maintained by the implementer. To test the accuracy of the data in this
database and verify the number of reported beneficiaries, the auditors checked the data against
supporting documentation. Similar but more limited testing was performed for certain other
activities, such as scholarships and training.




                                                                                                 9
                                                                                      Appendix II



MANAGEMENT COMMENTS


MEMORANDUM

Date:          March 5, 2012

To:            Joseph Farinella
               Director OIG/Pakistan

From:          Andrew Sisson /s/
               Mission Director

Subject:       Management Comments on the Audit of USAID/Pakistan’s Pre-Service Teacher
               Education Program (Pre-STEP)

Reference:     Draft Report No. G-391-12-00X-P dated February 13, 2012

Thank you for providing the mission with the opportunity to review the subject draft audit report.
Mission management appreciates the collegial manner in which the Office of Inspector General
conducted the audit. The audit was instructive and timely as the Mission is in the process of
scaling up the current program after the transition of implementers from Academy for
Educational Development to Education Development Center. The Mission is using lessons
learned from the first project, as well as participation in the audit process, to inform improved
implementation and monitoring processes in the second project. Please find below our
management comments on the recommendations included in the referenced audit report.

Recommendation No. 1: We recommend that USAID/Pakistan review program progress
to date in line with expenditures and timelines to achieve the desired results for the
remainder of the agreement, document the results of the review, and make adjustments
to the program if necessary.

Management Comments:
Mission management concurs with the recommendation. Mission is already monitoring the
spend rate and program implementation pace through quarterly pipeline reviews. As a result of
the pipeline review for the quarter ended October 2011, the Education Office through the Office
of Acquisition and Assistance is working with the implementer, Education Development Center,
to reprogram, within the parameters of the scope of work, for a more effective and efficient use
of funds. The reprogramming exercise will be finalized by April 30, 2012. The Mission will
continue close monitoring of program implementation through field visits, meetings with the
implementer, regular pipeline reviews and quarterly progress reports.

The draft audit report references the delay in meeting certain targets such as the number of
student scholarships and grants. In this regard, the Mission would like to note that the audit may
not have fully accounted for USAID/Pakistan’s efforts to ensure that program activities continue


                                                                                               10
                                                                                         Appendix II


without delay when the Government of Pakistan terminated its memorandum of understanding
with the Academy for Educational Development. This Government of Pakistan’s decision
resulted in delay of several activities and slight changes in the program direction. In addition, all
USAID/Pakistan programs are implemented in a complex environment where the host
government has very limited capacity. For example, it took extra time for the program team to
build capacity of public universities to write research proposals, before such proposals could be
accepted for consideration.

More importantly, one of the Mission’s primary objectives in Pakistan is to support Government
of Pakistan institutions to develop and to implement policy reform for better service delivery; in
the case of this program, the objective was to raise the quality of basic education in Pakistan
through better prepared teachers. During the first three-years, the program exceeded its target
considerably in the area of policy reform. The program target for these reforms was four; the
program achieved 13 separate policy reforms. These reforms enabled the launch of new
professional degree programs for teachers: a two-year Associate’s Degree in Education (ADE);
and a four-year Bachelor’s of Education (B.Ed.) degree. In addition, this program also
contributed positively to the introduction of significant reforms at the provincial level that make
teacher recruitment and promotion better rationalized.

Recommendation No. 2: We recommend that USAID/Pakistan update and finalize the
program’s performance management plan to ensure it is complete and meets agency
requirements.

Management comment:
Mission management concurs with the recommendation. The Education Office has been
working with Education Development Center to revise the interim Performance Management
Plan (PMP) for the Pre-Service Teacher Education Program in line with ADS 203 guidelines.
The revised PMP will include targets disaggregated by gender and region. The document will be
finalized by April 30, 2012.




                                                                                                  11
                                                                                     Appendix III


      Academy for Educational Development Program Indicators, Targets, and Results
                      September 30, 2008 – April 4, 2011 (Audited)

                                                                       FY Targets     FY Results
No.                      Performance Indicator
                                                                       2009 - 2011    2009 - 2011
1      Does your program support education system/policy reform?          Yes            Yes
       Number of laws, policies, regulations, or guidelines
2      developed or modified to improve equitable access to or the            4             13
       quality of education services
       Number of provinces/areas with plans to meet teacher
3                                                                             4              0
       demand/needs based on evidence from teacher mapping
       Number of host-country individuals receiving U.S.
4      Government (USG)-funded scholarships to attend higher              2,297            410
       education institutions
       Number of USG-funded scholarship and exchange programs
5                                                                             8              1
       conducted through higher education institutions
       Number of host-country individuals completing USG-funded
6      exchange programs conducted through higher education                  80              8
       institutions
       Number of textbooks and other teaching and learning
7                                                                         2,095          2,583
       materials provided with USG assistance
       Number of host-country individuals trained as a result of USG
8                                                                         1,620          2,693
       investments involving higher education institutions
       Number of host-country institutions with increased
9      management or institutional capacity as result of USG                 37              0
       investments involving higher education institutions
       Number of higher education partnerships between U.S. and
10     host-country higher education institutions that address               15              0
       regional, national, and/or local development needs
       Number of institutions receiving Pre-STEP support to
11     promote educational research for informed policy making and           36             10
       planning
12     Number of research studies completed through USG support              39              0
       Number of institutions receiving support through USG funding
13     for physical rehabilitation and construction work (for some           50              4
       universities) and material/equipment
       Number of host-country training programs/events conducted
14                                                                          155            130
       or organized with USG assistance
       Number of government colleges implementing the revised
15                                                                           25              0
       practicum program
       Number of government colleges establishing links with
16                                                                           25             10
       universities of Pakistan
       Sets of national subject-specific standards for teachers
17                                                                           12             12
       developed
       Number of institutions piloting new ADE and B.Ed. (honors)
18                                                                           15             16
       programs
       Number of trainee teachers enrolled in the new (ADE and
19                                                                        1,200            577
       B.Ed. honors) programs



                                                                                              12
                                                                                  Appendix IV


         Education Development Center Program Indicators, Targets, and Results
                         April 5 – September 30, 2011 (Audited)

                                                                        Targets     Results
No.                      Performance Indicator
                                                                         2011        2011

1      Education systems/policy reform.                                  Yes          Yes


2     Number of host-country higher education institutions
      implementing new teacher pre-service curriculum:

         Number of colleges offering ADE/B.Ed. teaching degree            11           10

         Number of universities offering ADE/B.Ed. teaching
         degree                                                           6             6


      Number of faculty trained to support the rollout of the ADE and
      B.Ed. (e.g., number who have completed Pre-STEP-
3     developed foundations modules, orientation workshops,              360          969
      curriculum development workshops, professional development
      institutes, or research workshops).

      Number of host-country individuals with improved access to                      Not
                                                                         660        available
4     higher education with support from USG-supported higher
      education programming.




                                                                                            13
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
